               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-02077-01




  Combined Assessment Program 

          Review of the 

Tennessee Valley Healthcare System
      Nashville, Tennessee 





October 16, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CVT            clinical video telehealth
                 ED             emergency department
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Tennessee Valley Healthcare System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 tPA            tissue plasminogen activator
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Acute Ischemic Stroke Care ...................................................................................                  11

  CLC Resident Independence and Dignity ...............................................................                           13

  MRI Safety ..............................................................................................................       15


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              29

  F. Report Distribution .............................................................................................            30

  G. Endnotes ...........................................................................................................         31





VA OIG Office of Healthcare Inspections
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN



                                Executive Summary 

Review Purpose:           The purpose of the review was to evaluate selected health
care facility operations, focusing on patient care quality and the environment of care,
and to provide crime awareness briefings. We conducted the review the week of
August 11, 2014.

Review Results:          The review covered seven activities.                    We made no
recommendations in the following activity:

 Magnetic Resonance Imaging Safety

The facility’s reported accomplishments were its Telephone Care Program and the use
of telemedicine.

Recommendations: We made recommendations in the following six activities:
Quality Management: Ensure actions from peer reviews are consistently completed and
reported to the Peer Review Committee. Consistently report Focused Professional
Practice Evaluation results for newly hired licensed independent practitioners to the
Medical Executive Board. Ensure Cardiopulmonary Resuscitation Review Committee
code reviews include screening for clinical issues prior to the event that may have
contributed to the code. Require the Surgical Work Group to meet monthly. Ensure the
Morbidity and Mortality Committee reviews all surgical deaths with identified problems
or opportunities for improvement. Keep the critical incident tracking and notification
system’s recipient list current.

Environment of Care: Require Environment of Care Board minutes to reflect sufficient
discussion of deficiencies, corrective actions taken, and tracking of actions to closure.
Ensure that the surveillance monitoring systems on the locked mental health units at the
York campus are functional and that regular inspections are documented. Secure
chemicals stored on the dialysis unit at the Nashville campus at all times. Ensure the
negative pressure control systems in the post-anesthesia care unit isolation rooms at
both campuses are functional. Post a laser warning sign on the door in the eye clinic
laser room at the York campus.

Medication Management: Complete and document patient discharge instructions.

Coordination of Care: Ensure patients receive ordered aftercare services and/or items
within the ordered/expected timeframe.

Acute Ischemic Stroke Care: Develop an acute ischemic stroke policy that addresses
all required items, and fully implement the policy. Complete and document National
Institutes of Health stroke scales for each stroke patient. Post stroke guidelines on the
intensive care and inpatient medical units. Screen patients for difficulty swallowing prior
to oral intake. Provide printed stroke education to patients upon discharge. Collect and



VA OIG Office of Healthcare Inspections                                                           i
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


report to the Veterans Health Administration the percent of eligible patients given tissue
plasminogen activator, the percent of patients with stroke symptoms who had the stroke
scale completed, and the percent of patients screened for difficulty swallowing before
oral intake.

Community Living Center Resident Independence and Dignity: Ensure employees who
perform restorative nursing services receive training on and competency assessment
for range of motion and resident transfers.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–28, for the full
text of the Directors’ comments.) We consider recommendation 20 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
August 11, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Tennessee Valley Healthcare System, Nashville, Tennessee,
Report No. 12-02185-288, September 27, 2012). We made a repeat recommendation
in EOC.

During this review, we presented crime awareness briefings for 589 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
698 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                        Reported Accomplishments 

Telephone Care Program
In response to patient satisfaction surveys, facility employees worked diligently to
improve access to care through the Telephone Care Program. In 2013, the facility
Director chaired a workgroup to address telephone call waiting and call abandonment
rates, and workgroup actions resulted in a dramatic decrease in both. The facility is
now considered a national leader, and its VHA performance measures in telephone
responsiveness currently meet and exceed target goals.  

Telemedicine
Facility clinical staff have been leaders in the implementation of non-face-to-face
interventions of care through the telemedicine program. This includes care delivery
coordinated through the Care Coordination Home Telehealth program, CVT brought into
a patient’s home, and electronic consults used for CVT for patients at other VA facilities.
The facility has led VISN 9 in the number of patients using CVT services and electronic
consults, with CVT growth increasing in FY 2014 from 969 patients to 5,346 patients.




VA OIG Office of Healthcare Inspections                                                          2
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met              Six months of PRC meeting minutes reviewed:
       selected requirements:                              Of the 28 actions expected to be completed,
        The PRC was chaired by the Chief of Staff           20 were not reported to the PRC.
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     Focused Professional Practice Evaluations for      Seventeen profiles reviewed:
       newly hired licensed independent practitioners      The results of six Focused Professional
       were initiated and completed, and results            Practice Evaluations were not reported to the
       were reported to the MEC.                            Medical Executive Board.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Twelve months of Cardiopulmonary
       met selected requirements:                         Resuscitation Review Committee meeting
        An interdisciplinary committee was               minutes reviewed:
          responsible for reviewing episodes of care       There was no evidence that code reviews
          where resuscitation was attempted.                included screening for clinical issues prior to
        Resuscitation event reviews included               events that may have contributed to the
          screening for clinical issues prior to events     occurrence of the code.
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Quality Work Group only met
       requirements:                                        2 times over the past 6 months.
        An interdisciplinary committee with
                                                          Several surgical deaths that occurred from
          appropriate leadership and clinical
                                                          January through June 2013 had identified
          membership met monthly to review surgical
                                                          problems or opportunities for improvement:
          processes and outcomes.
                                                           There was no evidence that the Morbidity and
        Surgical deaths with identified problems or
                                                             Mortality Committee reviewed one of these
          opportunities for improvement were
                                                             deaths.
          reviewed.
        Additional data elements were routinely
          reviewed.
 X     Critical incidents reporting processes were         The recipient list for the automatic e-mail
       appropriate.                                         notification was not current.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                       4
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


NM              Areas Reviewed (continued)                                    Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the Peer Review Committee.

2. We recommended that processes be strengthened to ensure that results of Focused
Professional Practice Evaluations for newly hired licensed independent practitioners are
consistently reported to the Medical Executive Board.

3. We recommended that processes be strengthened to ensure that Cardiopulmonary
Resuscitation Review Committee code reviews include screening for clinical issues prior to the
event that may have contributed to the occurrence of the code.

4.   We recommended that the Surgical Quality Work Group meet monthly.

5. We recommended that processes be strengthened to ensure that all surgical deaths with
identified problems or opportunities for improvement are reviewed by the Morbidity and Mortality
Committee.

6. We recommended that processes be strengthened to ensure that the critical incident
tracking and notification system’s recipient list is current.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

At the Nashville campus, we inspected the locked MH, SDS, dialysis, and medical intensive
care units; the PACU; one inpatient medical surgical unit; the ED; and the cardiology and eye
clinics.   At the York campus, we inspected the locked MH, medical intensive care,
medical/surgical/telemetry, and the CLC West and South/West units; the PACU; the ED; and the
chemotherapy and eye clinics. Additionally, we reviewed relevant documents, conversed with
key employees and managers, and reviewed 32 employee training records (6 SDS, 20 PACU,
and 6 eye clinic). The table below shows the areas reviewed for this topic. The areas marked
as NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM           Areas Reviewed for General EOC                                    Findings
 X     EOC Committee minutes reflected sufficient         Six months of EOC Board meeting minutes
       detail regarding identified deficiencies,          reviewed:
       corrective actions taken, and tracking of           Minutes did not reflect sufficient discussion of
       corrective actions to closure.                        deficiencies, corrective actions taken, and
                                                             tracking of actions to closure. This was a
                                                             repeat finding from the previous CAP review.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                    
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
 X     The facility complied with any additional          Local policy requires surveillance systems to be
       elements required by VHA, local policy, or         functional. The Joint Commission requires
       other regulatory standards.                        chemicals and solutions to be appropriately
                                                          stored to minimize or eliminate safety and
                                                          security risks.
                                                           At the York campus, the surveillance
                                                             monitoring systems were not functional at the
                                                             north hall of locked MH unit 7A and at the
                                                             east and west halls of locked MH unit 7B.
                                                           At the Nashville campus, a cart on the dialysis
                                                             unit had unsecured dialysis chemicals.



VA OIG Office of Healthcare Inspections                                                                        6
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


NM        Areas Reviewed for SDS and the PACU                                 Findings
       Designated SDS and PACU employees
       received blood borne pathogens training
       during the past 12 months.
 NA    Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.
 NA    SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
 X     The facility complied with any additional          The Centers for Disease Control and Prevention
       elements required by VHA, local policy, or         requires that facilities maintain a continuous
       other regulatory standards.                        negative air pressure system in rooms
                                                          designated for airborne isolation.
                                                           At both campuses, the negative pressure
                                                             control systems were not functional in the
                                                             PACU isolation rooms
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received               
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
 X     Laser safety requirements in the eye clinic         At the York campus, there was no laser
       were met.                                            warning sign posted on the door in the eye
                                                            clinic laser room.
       The facility complied with any additional             .
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

7. We recommended that processes be strengthened to ensure that Environment of Care
Board minutes reflect sufficient discussion of deficiencies, corrective actions taken, and tracking
of actions to closure.




VA OIG Office of Healthcare Inspections                                                                    7
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


8. We recommended that processes be strengthened to ensure that the surveillance
monitoring systems on the locked mental health units at the York campus are functional and that
regular inspections are documented.

9. We recommended that processes be strengthened to ensure that chemicals stored on the
dialysis unit at the Nashville campus are secured at all times and that compliance be monitored.

10. We recommended that processes be strengthened to ensure that the negative pressure
control systems in the post-anesthesia care unit isolation rooms at both campuses are functional
and that compliance be monitored.

11. We recommended that a laser warning sign be posted on the door in the eye clinic laser
room at the York campus and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    8
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
 X     Providers completed discharge progress              Nine EHRs (27 percent) did not contain
       notes or discharge instructions, written             documentation of discharge instructions.
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

12. We recommended that processes be strengthened to ensure that providers complete and
document patient discharge instructions and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    9
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 31 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The area marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
      Patients’ post-discharge needs were identified,
      and discharge planning addressed the
      identified needs.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
 X    Patients received the ordered aftercare              Five patients (16 percent) did not receive the
      services and/or items within the                      services and/or items ordered for them within
      ordered/expected timeframe.                           the ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendation

13. We recommended that processes be strengthened to ensure that patients receive ordered
aftercare services and/or items within the ordered/expected timeframe.




VA OIG Office of Healthcare Inspections                                                                   10
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e
The Nashville campus is designated as a Primary Stroke Center, and the York campus is
designated as a Supporting Stroke Facility.

We reviewed relevant documents and 35 EHRs (26 from the Nashville campus and 9 from the
York campus) of randomly selected patients who experienced stroke symptoms. Additionally,
we conversed with key employees. We also conducted onsite inspections of two EDs, two
intensive care units, and two inpatient medical units—one at each campus. The table below
shows the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                          Findings
 X     The facility’s stroke policy/plan/guideline           The facility did not have a policy in place that
       addressed all required items.                          addressed the management of acute
                                                              ischemic stroke.
 X     Clinicians completed the National Institutes of       Eighteen of the 26 EHRs from the Nashville
       Health stroke scale for each patient within the        campus and all 9 EHRs from the York
       expected timeframe.                                    campus did not contain documented evidence
                                                              of completed stroke scales.
 X     Clinicians provided medication (tPA) timely to        None of the three patients at the York
       halt the stroke and included all required steps,       campus who demonstrated acute ischemic
       and tPA was in stock or available within               stroke symptoms were considered for transfer
       15 minutes.                                            to a primary stroke center for further care,
                                                              possibly because the facility did not have an
                                                              acute ischemic stroke policy. Since we
                                                              recommended that the facility develop an
                                                              acute ischemic stroke policy, we made no
                                                              separate recommendation here.
 X     Stroke guidelines were posted in all areas            No stroke guidelines were posted in two
       where patients may present with stroke                 intensive care units and two inpatient medical
       symptoms.                                              units, one each at the Nashville and York
                                                              campuses.
 X     Clinicians screened patients for difficulty           Twelve of the 26 EHRs from the Nashville
       swallowing prior to oral intake of food or             campus and 5 of the 9 EHRs from the York
       medicine.                                              campus did not contain documentation that
                                                              patients were screened for difficulty
                                                              swallowing prior to oral intake of food or
                                                              medicine.
 X     Clinicians provided printed stroke education to       Five of the 22 applicable EHRs from the
       patients upon discharge.                               Nashville campus and 5 of 9 EHRs from the
                                                              York campus did not contain documentation
                                                              that stroke education was provided to the
                                                              patient/caregiver.




VA OIG Office of Healthcare Inspections                                                                     11
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


NM             Areas Reviewed (continued)                                     Findings
NA     The facility provided training to staff involved
       in assessing and treating stroke patients.
 X     The facility collected and reported required        There was no evidence that the following data
       data related to stroke care.                         were collected and/or reported to VHA:
                                                            o Percent of eligible patients given tPA
                                                            o Percent of patients with stroke symptoms
                                                               who had the stroke scale completed
                                                            o Percent of patients screened for difficulty
                                                               swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

14. We recommended that the facility develop an acute ischemic stroke policy that addresses
all required items, that the policy be fully implemented, and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

16. We recommended that stroke guidelines be posted on the intensive care and inpatient
medical units.

17. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake.
18. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.
19. We recommended that the facility collect and report to VHA the percent of eligible patients
given tissue plasminogen activator, the percent of patients with stroke symptoms who had the
stroke scale completed, and the percent of patients screened for difficulty swallowing before oral
intake.




VA OIG Office of Healthcare Inspections                                                                   12
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 13 EHRs of residents (10 residents receiving restorative nursing services and
3 residents not receiving restorative nursing services but candidates for services). We also
observed 4 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were             Three employee training/competency records
       completed for staff who performed restorative        did not contain evidence of completed training
       nursing services.                                    and competency assessment for range of
                                                            motion and resident transfers.
       The facility complied with any additional
       elements required by VHA or local policy.
           Areas Reviewed for Assistive Eating
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.



VA OIG Office of Healthcare Inspections                                                                   13
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


NM        Areas Reviewed for Assistive Eating                                 Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

20. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on and competency assessment for range of motion
and resident transfers.




VA OIG Office of Healthcare Inspections                                                                   14
                                          CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 47 designated Level 2 MRI
personnel, and we conversed with key managers and employees. We also reviewed the EHRs
of 35 randomly selected patients who had an MRI January 1–December 31, 2013. Additionally,
we conducted physical inspections of two MRI areas.    The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA.   The facility
generally met requirements. We made no recommendations.

NM                     Areas Reviewed                                         Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
       Any MRI contraindications were noted on the
       secondary patient safety screening form, and
       a Level 2 MRI personnel and/or radiologist
       addressed the contraindications and
       documented resolution prior to MRI.
       Level 1 ancillary staff and Level 2 MRI
       personnel were designated and received
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   15
                                       CAP Review of the Tennessee Valley Healthcare System, Nashville, TN
                                                                                              Appendix A


                Facility Profile (Nashville/626) FY 2014 through
                                   August 20141
Type of Organization                                                              1a-High complexity
Complexity Level                                                                  Tertiary
Affiliated/Non-Affiliated                                                         Affiliated
Total Medical Care Budget in Millions                                             $664.4
Number of:
    Unique Patients                                                              85,505
    Outpatient Visits                                                            825,207
    Unique Employees2                                                            1,864
Type and Number of Operating Beds (July 2014):
    Hospital                                                                     241
    CLC                                                                          238
    MH                                                                           34
Average Daily Census (July 2014):
    Hospital                                                                     188
    CLC                                                                          138
    MH                                                                           12
Number of Community Based Outpatient Clinics                                      13
Location(s)/Station Number(s)                                                     Dover/626GA
                                                                                  Bowling Green/626GC
                                                                                  Ft. Campbell/626GD
                                                                                  Clarksville/626GE
                                                                                  Chattanooga/626GF
                                                                                  Tullahoma/626GG
                                                                                  Cookeville/626GH
                                                                                  Vine Hill/626GI
                                                                                  Hopkinsville/626GJ
                                                                                  McMinnville/626GK
                                                                                  Harriman/626GL
                                                                                  Maury County/626GM
                                                                                  McMinn Outreach/626GN
VISN Number                                                                       9




1
    All data is for FY 2014 through August 2014 except where noted.

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                         17
                                                      CAP Review of the Tennessee Valley Healthcare System, Nashville, TN



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                               18
                                                                                                 CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


                                                                         Metric Definitions
 Measure                       Definition                                                                                   Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)            A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                      A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                   A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                         A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                  A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)               A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                            A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                       A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                         A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)               A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                         A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)            A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)     A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                        A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                             A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                               A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                      A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                         A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                        A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                    A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                       A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                      A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                          A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                               A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)   A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                   19
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       September 26, 2014

          From:        Director (10N9), VA Mid South Healthcare Network (VISN 9)

       Subject:        CAP Review of the Tennessee Valley Healthcare System,
                       Nashville, TN

             To:       Director (54SP), Bay Pines Office of Healthcare Inspections

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the CBOC and PCC Review of the Tennessee Valley
          Healthcare System.

       2. Corrective action plans have been established with completion dates,
          as detailed in the attached report.

       3. If you have any questions or need additional information, contact
          Cynthia L. Johnson, VISN 9 Quality Management Officer or
          Joseph Schoeck, VISN 9 Health Systems Specialist/Staff Assistant to
          the Network Director at 615-695-2200.




VA OIG Office of Healthcare Inspections                                                         20
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       9/16/2014

          From:        Director, Tennessee Valley Healthcare System (626/00)

       Subject:        CAP Review of the Tennessee Valley Healthcare System,
                       Nashville, TN

             To:       Director, VA Mid South Healthcare Network (10N9)

       1. I have reviewed and concur with the findings in this report. 	Specific
          corrective actions have been provided for the recommendations.

       2. Should you have any questions, please contact Paul Crews, Chief,
          Quality, Safety and Value, at 615-873-7080.




VA OIG Office of Healthcare Inspections                                                         21
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the Peer Review
Committee.

Concur

Target date for completion: 6/1/2015

Facility response: A PRC Level 2/3 worksheet was developed and implemented to track
action items. It will be embedded in the minutes to track actions from Peer Reviews and
be available to PRC members via the agenda drop folder/link. Members will be
updated on the completion of action items monthly. Metrics will be reported to the
Quality Management Committee. Corrective action follow-up will be monitored until
3 consecutive months demonstrate compliance at 90 percent completion.

Recommendation 2. We recommended that processes be strengthened to ensure that
results of Focused Professional Practice Evaluations for newly hired licensed
independent practitioners are consistently reported to the Medical Executive Board.

Concur

Target date for completion: 3/1/2015

Facility response: Current forms are being revised, allowing more autonomy, with
competencies clearly defined. SharePoint (LIP) link has been established and will aid in
system monitoring and tracking. Data sources have been clearly defined. Education of
staff and committee members regarding timely submission and reporting, as mandated
by local policy, will continue. Random department/section audits of new hire LIP
six-part folders will be conducted to ensure FPPEs have been completed. Medical
Executive Board minutes will be reviewed monthly to ensure minutes clearly document
successful completion of FPPEs. Metrics of FPPE completion will be reported to the
Quality Executive Board monthly until 90 percent compliance is achieved for 90 days.




VA OIG Office of Healthcare Inspections                                                         22
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


Recommendation 3. We recommended that processes be strengthened to ensure that
Cardiopulmonary Resuscitation Review Committee code reviews include screening for
clinical issues prior to the event that may have contributed to the occurrence of the
code.

Concur

Target date for completion: 3/1/2015

Facility response: The Code Blue review process is undergoing active restructuring by
implementing a 24 hour look-back (up to 72 hours if the patient has been inpatient for
that long) using Modified Early Warning System 4th generation (MEWS4) criteria to
identify patients whose clinical conditions had changed within that time frame and prior
to cardiac arrest. Other changes include a physician review of any Code Blue Events
where potential clinical issues are identified by this 24–72hr look-back. This information
will be reviewed in the Cardiopulmonary Resuscitation Review Committee with
opportunities for improvement identified. Monitoring for compliance will continue
through review of minutes until at least 90 percent compliance is achieved for 3 months.

Recommendation 4. We recommended that the Surgical Quality Work Group meet
monthly.

Concur

Target date for completion: 12/1/2014

Facility response: The Surgical Quality Work Group has been meeting monthly since
April, 2014, under the direction of the new Chief, Surgical Services. Compliance of
meetings will be monitored for another 90 days to ensure compliance with meeting
frequency is 100 percent.

Recommendation 5. We recommended that processes be strengthened to ensure that
all surgical deaths with identified problems or opportunities for improvement are
reviewed by the Morbidity and Mortality Committee.

Concur

Target date for completion: 12/1/2014

Facility response: All surgical deaths with identified problems or opportunities for
improvement will be reviewed by each surgery section’s Morbidity and Mortality (M&M)
committee. The minutes of the M&M committee will reflect discussion of the death and
any identified opportunities for improvement. The Surgical Work Group will review/track
all surgery deaths. Compliance will be monitored through review of the M&M minutes.




VA OIG Office of Healthcare Inspections                                                         23
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


Recommendation 6. We recommended that processes be strengthened to ensure that
the critical incident tracking and notification system’s recipient list is current.

Concur

Target date for completion: 8/15/2014

Facility response: The critical incident tracking and notification system’s recipient list
was made current before the end of the OIG survey. The list will be reviewed for
accuracy quarterly and will be documented in the Surgical Quality Workgroup minutes.
The Chair of the Surgical Quality Workgroup will be responsible for conveying any
changes to the recipient list to the VASQIP nurse in a timely manner for updates.

Recommendation 7. We recommended that processes be strengthened to ensure that
Environment of Care Board minutes reflect sufficient discussion of deficiencies,
corrective actions taken, and tracking of actions to closure.

Concur

Target date for completion: 1/30/2015

Facility response: The Environment of Care Board minutes will include detailed
discussion of deficiencies noted in reports, measures and inspections that are
presented for the reporting period, including corrective actions needed. An “action
tracker” will be included in the minutes for open task tracking that the committee
continues to follow. Monthly updates of items on the action tracker will occur until
closure. Compliance will be monitored through review of minutes until at least
90 percent compliance is achieved for three months.

Recommendation 8. We recommended that processes be strengthened to ensure that
the surveillance monitoring systems on the locked mental health units at the York
campus are functional and that regular inspections are documented.

Concur

Target date for completion: 10/15/2014

Facility response: Cameras were repaired before the end of the OIG survey. A nursing
assignment was added to each Shift Assignment Sheet with the verbiage “check
camera functionality.” Any discrepancy will be reported to the Nurse Manager during
administrative hours and Nurse-On-Duty during off tours. Work orders will be placed
when deficiencies are identified and additional staff will be posted for areas where
cameras are not working until the camera is fixed. The cameras and recording system
will be checked monthly by Biomedical Engineering in real time to check functionality
with results reported to the Environment of Care Board.




VA OIG Office of Healthcare Inspections                                                         24
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


Recommendation 9. We recommended that processes be strengthened to ensure that
chemicals stored on the dialysis unit at the Nashville campus are secured at all times
and that compliance be monitored.

Concur

Target date for completion: 11/1/2014

Facility response: Dialysis technicians were reminded during their staff meetings of the
requirement to never leave carts with any chemicals unattended. All carts with
chemicals will be stored in a secured room when not in use. The lead technician will
monitor for compliance daily until three months of 100 percent compliance is achieved.

Recommendation 10. We recommended that processes be strengthened to ensure
that the negative pressure control systems in the post-anesthesia care unit isolation
rooms at both campuses are functional and that compliance be monitored.

Concur

Target date for completion: 11/1/2015

Facility response: Replacement electronic monitoring systems have been ordered for
the PACU at both campuses and will be installed as soon as they are received (within
30 days). In addition, mechanical “flapper” type monitors will be added to the rooms to
provide a visual verification of the room pressurization (within 30 days).

Recommendation 11. We recommended that a laser warning sign be posted on the
door in the eye clinic laser room at the York campus and that compliance be monitored.

Concur

Target date for completion: 9/2/2014

Facility response: A temporary sign was posted on the eye clinic laser room at the York
campus before the OIG visit was complete. A permanent, yellow warning sign was
ordered and has now replaced the temporary sign. The compliance of the use of the
sign will be monitored by the Eye Clinic staff at the York campus.

Recommendation 12. We recommended that processes be strengthened to ensure
that providers complete and document patient discharge instructions and that
compliance be monitored.

Concur

Target date for completion: 7/1/2015

Facility response: A multi-disciplinary committee is being formed to address
strengthening the patient discharge plan to include discharge instructions. Compliance



VA OIG Office of Healthcare Inspections                                                         25
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


will be monitored through review of 30 electronic records of discharges per month.
Monitoring will continue until 90 percent compliance is achieved for three months.
Metrics will be reported to the Quality Executive Board.

Recommendation 13. We recommended that processes be strengthened to ensure
that patients receive ordered aftercare services and/or items within the
ordered/expected timeframe.

Concur

Target date for completion: 4/1/2015

Facility response: A multi-disciplinary workgroup will be established to address the
discharge planning process. The workgroup will be led by SWS and will look at how to
best address discharge planning needs and services. The current policy will be revised
or an additional policy written to better define the discharge process and staff will be
educated. The discharge template will be provided to the patient and/or family member,
as appropriate. Random audits of aftercare service scheduling and services will be
completed on 15 discharged patient records per month with metrics reported to the
Quality Executive Board until 90 percent compliance is achieved for 90 days.

Recommendation 14. We recommended that the facility develop an acute ischemic
stroke policy that addresses all required items, that the policy be fully implemented, and
that compliance be monitored.

Concur

Target date for completion: 3/20/2015

Facility response: The VA Tennessee Valley Healthcare System (TVHS) will have
approved policies defining the treatment of Acute Ischemic Stroke (AIS) as required by
VHA Directive 2011-038 by October 22, 2014. TVHS is an integrated healthcare
system with medical centers at the Nashville campus and the Alvin C. York campus in
Murfreesboro. The policies will reflect differences in the capabilities of the two medical
centers. The Nashville Medical Center functions as a Primary Stroke Center (PSC) and
the Alvin C. York Medical Center functions as a Supporting Stroke Facility (SSF).

Validation of compliance with VHA Directive 2011-038 and facility policies will be
monitored through the TVHS Stroke Center Oversight Committee (SCOC) and reported
to leadership through the Clinical Care Committee (CCC) on a quarterly basis.

Recommendation 15. We recommended that processes be strengthened to ensure
that clinicians complete and document National Institutes of Health stroke scales for
each stroke patient and that compliance be monitored.

Concur

Target date for completion: 3/20/2015


VA OIG Office of Healthcare Inspections                                                         26
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


Facility response: TVHS has completed an educational program on performing the
National Institutes of Health Stroke Scale (NIHSS) for all of the Stroke Team members
at the Nashville campus and will complete training for all of the Stroke Team members
at the Alvin C. York campus by October 22, 2014. TVHS has developed standardized
templates for stroke CPRS notes that contain the NIHSS as a required element.

Validation of compliance will be monitored by the TVHS Stroke Center Oversight
Committee for a period of not less than 90 days to ensure 90 percent performance.

Recommendation 16. We recommended that stroke guidelines be posted on the
intensive care and inpatient medical units.

Concur

Target date for completion: 10/31/2014

Facility response: TVHS will post the facility stroke flowchart for recognition and
treatment of AIS according to local policy in all outpatient and inpatient areas by
October 22, 2014. The Act FAST algorithm, developed by the American Stroke
Association, and Stroke Team pager number will be included in the posted material.

Recommendation 17. We recommended that processes be strengthened to ensure
that clinicians screen patients for difficulty swallowing prior to oral intake.

Concur

Target date for completion: 3/20/2015

Facility response: TVHS has an established dysphagia policy (TVHS Memorandum
626-12-126-01 Evaluation and Management of Swallowing and Feeding Disorders).
Additionally, a dysphagia assessment template has been created in CPRS for standard
use in the Nashville Emergency Department and the Stroke Admission Note. To ensure
that clinicians screen patients for difficulty swallowing prior to oral intake, the dysphagia
memorandum and assessment template will be made available, with in-service
education, to members of the stroke teams, ICUs and EDs at both TVHS campuses.
Validation of compliance will be monitored by the TVHS Stroke Center Oversight
Committee for a period of not less than 90 days to ensure 90 percent performance.

Recommendation 18. We recommended that processes be strengthened to ensure
that clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: 3/20/2015

Facility response: Education Service will identify select stroke education materials that
will be available for Veterans. Educational material will be added to the tools section in


VA OIG Office of Healthcare Inspections                                                         27
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN


CPRS so staff can print and provide to patients on discharge. Reminder dialogue will
be added to the Education Note for staff to document the specific handout that was
provided to the Veteran/Caregiver. Training of staff will occur by November 30, 2014.
Compliance monitoring of documentation of printed materials will be reported to the
Quality Executive Board.

Recommendation 19. We recommended that the facility collect and report to VHA the
percent of eligible patients given tissue plasminogen activator, the percent of patients
with stroke symptoms who had the stroke scale completed, and the percent of patients
screened for difficulty swallowing before oral intake.

Concur

Target date for completion: 3/20/2015

Facility response: AIS data will be entered into the IPEC tool monthly and reviewed
quarterly by the TVHS Stroke Center Oversight Committee to monitor program metrics
and patient care.

Recommendation 20. We recommended that processes be strengthened to ensure
that employees who perform restorative nursing services receive training on and
competency assessment for range of motion and resident transfers.

Concur

Target date for completion: 8/15/2014

Facility response: 100 percent of the restorative nursing team has received
comprehensive training on the range of motion and resident transfers restorative
programs. These eight individuals will be providing the range of motion and resident
restorative care. A competency assessment has been completed on all restorative
nursing assistants on range of motion and transfer. All future restorative nursing
assistants will have competency assessments completed within eight weeks of hire.




VA OIG Office of Healthcare Inspections                                                         28
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  David Griffith, RN, BS, Team Leader
Contributors            Darlene Conde-Nadeau, MSN, ARNP
                        Karen McGoff-Yost, MSW, LCSW
                        Martha Kearns, MSN, FNP
                        Alice Morales-Rullan, RN, MSN
                        Lauren Olstad, MSW, LCSW
                        Carol Torczon, MSN, ACNP
                        Brian Celatka, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         29
                                CAP Review of the Tennessee Valley Healthcare System, Nashville, TN
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Mid South Healthcare Network (10N9)
Director, Tennessee Valley Healthcare System (626/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lamar Alexander, Bob Corker, Rand Paul
U.S. House of Representatives: Diane Black, Marsha Blackburn, Jim Cooper,
 Scott DesJarlais, Chuck Fleischmann, Stephen Fincher


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         30
                                    CAP Review of the Tennessee Valley Healthcare System, Nashville, TN
                                                                                          Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        31
                                        CAP Review of the Tennessee Valley Healthcare System, Nashville, TN



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          32
